TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Internal Revenue Service Expects to
                Spend About $13 Million to Recover From the
                  2006 Flood of Its Headquarters Building



                                           July 13 2007

                              Reference Number: 2007-10-113




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 13, 2007


 MEMORANDUM FOR ACTING COMMISSIONER, INTERNAL REVENUE SERVICE

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Internal Revenue Service Expects to Spend
                               About $13 Million to Recover From the 2006 Flood of Its Headquarters
                               Building (Audit # 200710031)

 This report presents the results of our review of flood expenditures incurred by the Internal
 Revenue Service (IRS) when its National Headquarters building was flooded during 2006. The
 overall objective of this review, initiated at the request of the Ranking Member of the United
 States Senate Committee on Finance, was to determine the costs incurred by the IRS to recover
 from the flooding of its National Headquarters building, including whether the reported expenses
 were properly related to the flood and proper procurement processes were followed.

 Impact on the Taxpayer
 The IRS will spend about $13 million to recover from the flood but did not require any new
 funding over its existing budget. There was minimal impact on the taxpayer because most of the
 funds did not come at the expense of IRS programs; rather, the funds came from yearend
 surpluses, rent credits from the damaged building, and user fees.1

 Synopsis
 As of December 31, 2006, the IRS had spent about $11.6 million to recover from the flood. It
 expects to spend another $1.6 million, for a total cost of about $13.2 million. These costs were
 approximately $7.9 million (37 percent) less than the original estimate of $21.1 million. IRS
 officials suggested several factors caused the initial estimate to be high, including estimates were

 1
   User fees are charges individuals and businesses are required to pay for special benefits received beyond those
 received by the general public and, in general, can be used to supplement the funding of a variety of IRS operations.
                                 The Internal Revenue Service
                    Expects to Spend About $13 Million to Recover From the
                           2006 Flood of Its Headquarters Building


made before damages had been thoroughly assessed and technology improvements resulted in
lower costs for some replacement items. Congress did not provide additional funding to pay for
the flood damages. Instead, the IRS paid for these costs by using yearend savings (surpluses),
rent credits from the damaged building, and user fees.
Although all IRS functions were affected by the flood, the four functions with the highest
estimated costs were Agency-Wide Shared Services (about $8 million), Modernization and
Information Technology Services (about $2.7 million), Chief Counsel (about $1.6 million), and
Criminal Investigation (about $0.7 million). Approximately 70 percent of the costs were related
to rent for temporary space, automated data processing equipment, services and maintenance,
and salaries for those involved in the recovery efforts.
Our review of a statistical sample of flood-related purchase transactions showed the IRS
purchases were appropriate. The purchases we examined were related to the flood, and existing
Federal Government contracts with approved vendors were used to obtain the needed services
and equipment. In addition, the office of the Chief Financial Officer monitored the functions’
spending during the latter part of Fiscal Year 2006 to ensure sufficient funds were available to
cover the costs to purchase replacement items.

Response
We made no specific recommendations as a result of the analyses performed during this audit.
IRS management reviewed a draft of this report and agreed with the facts and findings presented;
their comments have been considered and, where appropriate, incorporated into this report.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




                                                                                                   2
                                         The Internal Revenue Service
                            Expects to Spend About $13 Million to Recover From the
                                    2006 Flood of Its Headquarters Building




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Costs to Recover From the Flood Were Less Than
          Initially Expected ..........................................................................................Page 3
          No Procurement Irregularities Were Detected
          in the Sample of Flood Transactions Reviewed ...........................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Internal Revenue Service Flood Expenses Paid
          (as of December 31, 2006)............................................................................Page 13
                   The Internal Revenue Service
      Expects to Spend About $13 Million to Recover From the
              2006 Flood of Its Headquarters Building




                  Abbreviations

ADP         Automated Data Processing
GSA         General Services Administration
IFS         Integrated Financial System
IRS         Internal Revenue Service
                                    The Internal Revenue Service
                       Expects to Spend About $13 Million to Recover From the
                               2006 Flood of Its Headquarters Building




                                           Background

In late June 2006, a low-pressure system stalled off the
east coast and produced record rainfall in the            This is the third report produced
                                                             by the Treasury Inspector
Washington, D.C., area. According to the National          General for Tax Administration
Weather Service, the second greatest daily rainfall ever   on the effects of the flooding of
in Washington, D.C., occurred on June 25, 2006, when       the IRS National Headquarters
7.09 inches of rain fell in the city. The heavy rains                  building.
overwhelmed storm water drainage systems and flooded
the subbasement and basement of the Internal Revenue
Service (IRS) National Headquarters building with more than 20 feet of water.
The water from the storm severely damaged the building’s electrical, heating, and
air-conditioning systems in the subbasement and destroyed offices, vehicles, furniture, and
computer equipment located in the basement and garage. The approximately 2,200 employees
who worked in the building, including the top executives of the IRS’ major functional areas,
were assigned temporary space in other IRS facilities or began telecommuting during the repair
and rebuilding efforts.
Because the IRS is a tenant in a building leased from the General Services Administration
(GSA), it was not responsible for the costs to make structural repairs to the building. In
September 2006, the GSA estimated that its cost to repair the building, grounds, and internal
infrastructure items (e.g., plumbing, electrical system, heating and air-conditioning, and building
wiring) was approximately $36.8 million. This audit was limited to the costs incurred by the IRS
to establish temporary worksites; move employees to those sites; assist with building cleanup;
replace damaged equipment, vehicles, and furniture; and return displaced employees to their
original posts of duty. We limited our testing to only those expenditures recorded in the IRS
Integrated Financial System (IFS)1 as of December 31, 2006. The Treasury Inspector General
for Tax Administration has previously reported on the effect of the flood on 1) data security and
computer operations2 and 2) general business resumption activities.3
This review was performed at the IRS National Headquarters in Washington, D.C., in the offices
of the Chief Counsel, Chief Financial Officer, Criminal Investigation, Modernization and
Information Technology Services, and Agency-Wide Shared Services during the period


1
  IRS accounting system.
2
  The Internal Revenue Service Adequately Protected Sensitive Data and Restored Computer Operations After the
Flooding of Its Headquarters Building (Reference Number 2007-20-023, dated January 26, 2007).
3
  The Internal Revenue Service Building Flood Caused No Measurable Impact on Tax Administration (Reference
Number 2007-30-028, dated February 7, 2007).
                                                                                                        Page 1
                                The Internal Revenue Service
                   Expects to Spend About $13 Million to Recover From the
                           2006 Flood of Its Headquarters Building



November 2006 through April 2007. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                     Page 2
                                     The Internal Revenue Service
                        Expects to Spend About $13 Million to Recover From the
                                2006 Flood of Its Headquarters Building




                                       Results of Review

Costs to Recover From the Flood Were Less Than Initially Expected
Immediately following the flood, the IRS estimated it would spend $21.1 million4 to rent
temporary work space, move personnel to and from the temporary space, assist with building
cleanup efforts, and replace damaged equipment. On December 8, 2006, the IRS and the GSA
considered the building ready for reopening and IRS staff began to return.
As of December 31, 2006, the IRS had spent about $11.6 million5 to recover from the flood. It
expects to spend another $1.6 million, for a total cost of about $13.2 million. The costs were
approximately $7.9 million (37 percent) less than the original estimate of $21.1 million. IRS
officials suggested several factors caused the initial estimate to be high:
         •   The original estimates were developed before the functions had the opportunity to
             thoroughly assess the damage and research the costs to replace the equipment.
         •   The GSA paid more of the costs than expected.
         •   The original estimate included funds for contingencies that were not needed.
         •   Technology improvements resulted in lower costs for some replacement items.
         •   Not all items that were destroyed were replaced.
Congress did not provide additional funding to pay for the flood damages. Instead, the IRS paid
for these costs by using yearend savings (surpluses), rent credits from the damaged building, and
user fees.6 Approximately 70 percent of the costs were related to rent for temporary space,
automated data processing (ADP) equipment, services and maintenance, and salaries for those
involved in the recovery efforts. Figure 1 shows the amount spent for each of these four expense
categories as of December 31, 2006 (see Appendix IV for a complete list of costs).




4
  Reported as $17.2 million in a previous Treasury Inspector General for Tax Administration report because of an
expected rent credit of $3.9 million. The Internal Revenue Service Building Flood Caused No Measurable Impact
on Tax Administration (Reference Number 2007-30-028, dated February 7, 2007).
5
  See Appendix IV for a description of the funds spent by December 31, 2006.
6
  User fees are charges individuals and businesses are required to pay for special benefits received beyond those
received by the general public and, in general, can be used to supplement the funding of a variety of IRS operations.
                                                                                                             Page 3
                                      The Internal Revenue Service
                         Expects to Spend About $13 Million to Recover From the
                                 2006 Flood of Its Headquarters Building



               Figure 1: Actual Flood Recovery Costs As of December 2006
    IFS                                                                                         Percentage
                                     Description                                 Cost
    Code                                                                                         of Total
    2311      Rent for Temporary Space                                          $3,287,606           28.4%
    31AD      ADP Equipment, Capitalized                                         1,944,739           16.8%
    2546      Services and Maintenance to Buildings and Space                    1,851,338           15.9%
    11SP      Salaries – Full-Time Permanent                                     1,177,095           10.1%
    Various   All Others (26 accounts)                                           3,335,217           28.8%
              Totals                                                           $11,595,995           100%
Source: The IFS and interviews with IRS officials.

Although all IRS functions were affected by the flood, the four functions with the highest
estimated costs were Agency-Wide Shared Services, Modernization and Information Technology
Services, Chief Counsel, and Criminal Investigation. The Agency-Wide Shared Services
function had overall responsibility for leading the recovery efforts. The other three functions had
significant operations or assets in the affected areas of the building. Figure 2 shows the
estimated total costs for each of these functions. The costs in Figure 2 include the approximately
$11.6 million spent as of December 2006, plus the estimated additional costs of $1.6 million that
have not yet been spent (total estimated costs of about $13.2 million).
                Figure 2: Estimated Total Recovery Costs for IRS Functions
                                                                                          Percentage of
    Function                                                       Estimated Cost
                                                                                              Total
    Agency-Wide Shared Services                                          $7,964,851               60.4%
    Modernization and Information Technology Services                     2,686,771               20.4%
    Chief Counsel                                                         1,602,778               12.2%
    Criminal Investigation                                                  681,054                 5.2%
    All Other Functions7                                                    239,566                 1.8%
    Total Estimated Costs                                               $13,175,020               100%
    Source: The IFS and IRS functions.

Agency-Wide Shared Services
The Real Estate and Facilities Management unit within the Agency-Wide Shared Services
function has overall responsibly for property management within the IRS. This unit conducted
the initial assessment of the damage and arranged for pumping services to remove the flood


7
 The other functions were Appeals, Chief Financial Officer, Chief Human Capital Officer, Communications and
Liaison, Large and Mid-Size Business, National Headquarters staff, Small Business/Self Employed, Tax Exempt
and Government Entities, and Wage and Investment.
                                                                                                       Page 4
                                  The Internal Revenue Service
                     Expects to Spend About $13 Million to Recover From the
                             2006 Flood of Its Headquarters Building



waters. It also coordinated with the GSA to arrange for the removal of damaged items and
decontamination services that were necessary before restoring the building.
The basement included some rooms used as offices and others used for storage of office
equipment and supplies, as well as the building fitness center. The Real Estate and Facilities
Management unit was responsible for replacing the basic office furnishings that were lost in the
flood, including desks, chairs, file cabinets, computer stands, coat racks, refrigerators, and other
items common to a typical office.
The Agency-Wide Shared Services function anticipated spending a total of about $8 million on
the flood recovery efforts. Through December 31, 2006, it had spent about $6.9 million of this
amount on the following:
       •   Additional rent for temporary office space – $3.3 million.
       •   Cleanup activities such as removing the damaged equipment and furniture, pumping
           out flood waters, and sanitizing the basement and subbasement – $1.8 million.
       •   Salaries for employees directly involved in the recovery efforts – $1 million.
       •   Criminal Investigation function office and storage space – $354,000.
       •   Other expenses – $387,000.

Modernization and Information Technology Services
Immediately after the flood, Modernization and Information Technology Services function
officials estimated the flood damages for nonlabor costs in their organization to be
approximately $4 million. Most of this estimated cost was for replacing network infrastructure
(Headquarters office and the temporary space), reestablishing telephone service, connecting the
temporary offices, and handling some surplus equipment damaged by the flooding. However,
the estimate of $4 million was significantly higher than the amount the Modernization and
Information Technology Services function will spend to recover from the flood. Figure 3 shows
this function’s actual flood-related expenses as of April 2007.




                                                                                              Page 5
                                    The Internal Revenue Service
                       Expects to Spend About $13 Million to Recover From the
                               2006 Flood of Its Headquarters Building



             Figure 3: Modernization and Information Technology Services
                       Function Flood Expenses As of April 2007

            Type of Expense                                                             Amount
            Local Telephone Service                                                       $7,157
            Support Transportation                                                        14,028
            Travel Costs to Temporary Offices                                             73,833
            Support Supplies                                                             102,944
            ADP Components                                                               199,936
            Telecommunications Equipment                                                 219,187
            Labor Costs (not included in original damage estimate)                       601,947
            ADP Equipment                                                                607,715
            Working Capital Fund for Telephone and Data Network                          860,024
            Total Expenses                                                            $2,686,771
           Source: The IFS and the Modernization and Information Technology Services function.

The reasons that actual costs were less than the estimated costs included:
       •     Surplus equipment valued at about $335,000 will not be replaced.
       •     Telephone equipment estimated at $1,000,000 was not needed.
       •     Various other overestimates of about $600,000.

Chief Counsel
The Office of Chief Counsel used several rooms in the basement to temporarily store new
equipment before it was to be distributed to its employees. This equipment was destroyed during
the flood. The new items awaiting distribution included computers, printers, network equipment,
laptop port replicators, carrying cases, locks, and power supply converters. As of
December 31, 2006, the Office of Chief Counsel had completed all of its flood-related purchases.
Figure 4 shows a detailed breakdown of this function’s $1.6 million in flood-related expenses.




                                                                                                   Page 6
                                     The Internal Revenue Service
                        Expects to Spend About $13 Million to Recover From the
                                2006 Flood of Its Headquarters Building



                       Figure 4: Office of Chief Counsel Flood Expenses

              Type of Expense                                                               Amount
              Support Services                                                               $1,946
              Mobile Telephones and Pagers                                                    2,295
              Maintenance – Computer Equipment                                               20,910
              Travel Costs to Temporary Offices                                              27,603
              ADP Equipment                                                               1,550,024
              Total Expenses                                                             $1,602,778
             Source: The IFS.

Criminal Investigation
The Criminal Investigation function stored most of its headquarters surveillance equipment in its
offices located in the basement of the IRS Headquarters office, including more than 700 items
categorized as audio, optical/photographic, radio, telecommunications, tracking, video, or other
miscellaneous equipment. None of the equipment that sustained water damage was usable.
Additionally, two vehicles used by Criminal Investigation function agents and an additional
vehicle assigned to the IRS Commissioner were damaged by the flood.
As of December 31, 2006, the Criminal Investigation function had spent a total of $581,054 to
replace the damaged surveillance equipment, acquire telecommunications equipment, and pay
local travel expenses. Criminal Investigation function officials told us the replacement costs of
the destroyed equipment were reduced as a result of technological advances and lower costs due
to the advanced electronic surveillance equipment becoming more readily available. The
Criminal Investigation function used a combination of asset forfeiture funds8 ($400,000) and
regularly appropriated funds ($181,054) to cover the costs it incurred. It expects to purchase
about another $100,000 worth of equipment with the asset forfeiture funds in Fiscal Year 2007
and estimates its total flood-related costs to be about $681,000.

No Procurement Irregularities Were Detected in the Sample of Flood
Transactions Reviewed
Our review of a statistical sample of flood-related purchase transactions showed the IRS
purchases were appropriate. The purchases we examined were related to the flood, and existing
Federal Government contracts with approved vendors were used to obtain the needed services
and equipment. In addition, the office of the Chief Financial Officer monitored the functions’


8
 Purchasing investigative equipment is an appropriate use of asset forfeiture funds. Asset forfeiture funds are the
net proceeds (resulting from the seizure and sale of property involved in illegal activities) shared by law
enforcement agencies that participated in the investigation that led to the confiscation of the property.
                                                                                                             Page 7
                                 The Internal Revenue Service
                    Expects to Spend About $13 Million to Recover From the
                            2006 Flood of Its Headquarters Building



spending during the latter part of Fiscal Year 2006 to ensure sufficient funds were available to
cover the costs to purchase replacement items.
We reviewed a statistical sample of 140 transactions, plus the 10 largest flood expenditures, to
determine whether they were appropriate. We did not identify any improper transactions, and all
expenditures appeared to be related to flood damages. We analyzed all available supporting
documentation, which included travel vouchers, telephone vouchers, purchase card receipts,
invoices, receiving reports, and employee requisitions. All of the expenditures were properly
approved, and all purchases for more than $2,500 were properly handled through the
procurement process. The IRS used existing Federal Government contracts with approved
vendors to purchase large-dollar items.




                                                                                            Page 8
                                      The Internal Revenue Service
                         Expects to Spend About $13 Million to Recover From the
                                 2006 Flood of Its Headquarters Building



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine the costs incurred by the IRS to recover from the flooding
of its National Headquarters building, including whether expenses were properly related to the
flood and proper procurement processes were followed. We did not conduct any tests of the
expenses paid by the GSA to repair the 1111 Constitution Avenue building. Those expenses are
the burden of the GSA as the landlord of the building; the IRS is responsible only for those
expenses typically incurred by a tenant. To accomplish our objective, we:
I.         Determined if the IRS limited its purchases of replacement items to only those that were
           damaged in the flooding.
           A. Obtained lists of items damaged in the flood from the Agency-Wide Shared Services,
              Criminal Investigation, Chief Counsel, and Modernization and Information
              Technology Services functions.
           B. Obtained a download from the IFS1 of all transactions with an internal order code of
              “FLOOD.”
           C. Selected a sample of FLOOD-related purchases and determined if the items
              purchased could be matched to damaged items. Details about our sampling plan are
              included at the end of this Appendix.
           D. Selected the 10 largest FLOOD transactions and determined if the items purchased
              could be matched to the damaged items.
           E. Determined the reasons for any discrepancies.
II.        Determined if the costs incurred (such as, but not limited to, replacing damaged vehicles,
           computers, equipment, and supplies) were reasonable.
           A. Determined the prices paid for a sample of selected items (e.g., vehicles, equipment,
              and services) and compared them to open market prices.
           B. If any prices seemed excessive, determined the facts and circumstances of those
              particular purchases to determine if there were any valid extenuating circumstances
              that justified the higher than open market costs.




1
    IRS accounting system.
                                                                                               Page 9
                                      The Internal Revenue Service
                         Expects to Spend About $13 Million to Recover From the
                                 2006 Flood of Its Headquarters Building



          C. Because some employees were reimbursed for travel expenses to their temporary
             offices, determined the total amount reimbursed and assessed the reasonableness of
             the expenses claimed for those in our sample.
III.      For the items selected in Steps I and II, determined if the invoiced transactions were
          handled through negotiated Federal Government contracts, purchase card transactions
          were for less than $2,500, and all transactions were approved by IRS managers. (We did
          not evaluate the actual contract negotiations that occurred when contracts were awarded.
          We cannot comment about whether the contracts were properly awarded by the IRS.)

Sampling Plan
We determined an unstratified random sample (attribute sampling) was appropriate and
developed the following sampling plan:
Total population of expenditure line items                           7,521
Confidence level of sample:                                          90%
Expected error rate:                                                 5%
Precision level of sample:                                           +3%
Sample size:                                                         140
Sample selection technique:                                          random
Type of sample:                                                      attribute
We used attribute sampling because an exception will be defined as either a yes or no question
(Was the expenditure appropriate?).

Computer-Processed Data
We did not attempt to validate the reliability of data from either the IFS or the Web-Requisition
Tracking System.2 However, we reviewed all individual transactions selected in our sample and
determined if the information was complete and correct when matching data to source
documents.




2
    IRS Automated Purchase/Acquisition System.
                                                                                           Page 10
                                The Internal Revenue Service
                   Expects to Spend About $13 Million to Recover From the
                           2006 Flood of Its Headquarters Building



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Kevin P. Riley, Audit Manager
Tom J. Cypert, Lead Auditor
Cheryl Medina, Senior Auditor




                                                                                    Page 11
                                The Internal Revenue Service
                   Expects to Spend About $13 Million to Recover From the
                           2006 Flood of Its Headquarters Building



                                                                 Appendix III

                         Report Distribution List

Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
Chief, Agency-Wide Shared Services OS:A
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Chief, Mission Assurance and Security Services OS:MA
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner C
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief Counsel CC
       Chief, Agency-Wide Shared Services OS:A
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS:CFO




                                                                       Page 12
                                       The Internal Revenue Service
                          Expects to Spend About $13 Million to Recover From the
                                  2006 Flood of Its Headquarters Building



                                                                                           Appendix IV

         Internal Revenue Service Flood Expenses Paid
                   (as of December 31, 2006)

     IFS1 Code                                      Description                            Dollar Amount
     1171              Cash Awards                                                                 $5,065
     11OT              Overtime and Holiday                                                       216,807
     11PP              Pay Differential (non-Administratively Uncontrollable Overtime)                  4
     11SP              Salaries – Full-Time Permanent                                           1,177,095
     11ST              Salaries – Other Than Full-Time Permanent                                    8,013
     12LA              Personnel Benefits                                                         290,007
     21TV              Operating Travel, Domestic                                                 310,818
     22SS              Support Transportation                                                      11,730
     2321              Rent – Enforcement                                                         354,407
     2331              Utility Services                                                               652
     2351              Mobile Telephones and Pagers                                                 2,295
     2353              Local Telephone Service                                                      2,884
     23SS              Support Rentals                                                            267,119
     2526              Contractual labor – Private Sector                                          10,053
     2544              Custodial                                                                      230
     2546              Services and Maintenance to Buildings and Space                          1,851,338
     25MA              Maintenance – Computer Equipment                                            20,910
     25SS              Support Services – Private Sector                                            4,551
     2634              ADP Components                                                             246,252
     267S              Other Supplies                                                               5,979
     26EE              Supplies, Firearms, Vehicle Costs – Enforcement                             26,480
     26SS              Support Supplies                                                           125,921
     3125              Non-Capitalized Non-ADP Equipment                                           17,253
     3174              Non-Capitalized Property Telecommunications Equipment                       18,117
     31AD              ADP Equipment, Capitalized                                               1,944,739
     31CO              Telecommunications Equipment, Capitalized                                  248,205
     3202              Land, Buildings, and Other Structures – Other                                9,168
     Total Expenses Coded As Flood Expenses in the IFS                                         $7,176,092
     Estimated Criminal Investigation Equipment Expenses (not coded as flood expenses in
     the IFS)                                                                                    $400,000
     Data and Voice Network Expenses (not coded as flood expenses in the IFS)                     732,297
     Additional Rent for Temporary Space (not coded as flood expenses in the IFS)               3,287,606
     Total IRS Flood Expenses (as of 12/31/2006)                                              $11,595,995
    Source: The IFS and interviews with IRS officials.



1
    IRS accounting system.
                                                                                                   Page 13
